APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order Rejecting Application for Writ of
Certiorari in the Supreme Court of the
State of Hawai‘i
(April 4, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Consolidated Third Amended Revised
Final Judgment in the Circuit Court of
the First Circuit, State of Hawaii
(September 19, 2016) . . . . . . . . . . App. 4
Appendix C Memorandum
Opinion
in the
Intermediate Court of Appeals of the
State of Hawai‘i
(November 30, 2018) . . . . . . . . . . App. 12
Appendix D Judgment
on
Appeal
in the
Intermediate Court of Appeals of the
State of Hawai‘i
(January 4, 2019) . . . . . . . . . . . . App. 47

App. 1

APPENDIX A
IN THE SUPREME COURT OF
THE STATE OF HAWAI‘I
SCWC-16-0000679 AND SCWC-16-0000782
[Filed April 4, 2019]
________________________________________________
BENJAMIN PAUL KEKONA and
)
TAMAE M. KEKONA,
)
Petitioners and Respondents/
)
Plaintiffs/Counterclaim-Defendants/Appellees, )
)
vs.
)
)
PAZ F. ABASTILLAS, also known as
)
PAZ A. RICHTER, ROBERT A SMITH, personally, )
Respondents and Petitioners/
)
Defendants/Counterclaim-Plaintiffs/Appellees, )
)
and
)
)
ROBERT A. SMITH, Attorney at Law, A
)
Law Corporation, STANDARD MANAGEMENT, )
INC., U.S. BANCORP MORTGAGE COMPANY, )
an Oregon Company, WESTERN SURETY
)
COMPANY, sued herein as Doe Entity 1,
)
Respondents/Defendants-Appellees,
)
)
and
)
)
MICHAEL BORNEMANN, M.D.,
)

App. 2
Respondent and Petitioner/
)
Defendant-Appellant.
)
_______________________________________________ )
(CAAP-16-0000679; CIV. NO. 93-3974-10)
________________________________________________
BENJAMIN PAUL KEKONA and
)
TAMAE M. KEKONA,
)
Petitioners and Respondents/
)
Plaintiffs/Counterclaim-Defendants/Appellees, )
)
vs.
)
)
PAZ F. ABASTILLAS, also known as
)
PAZ A. RICHTER, ROBERT A SMITH, personally, )
Respondents and Petitioners/
)
Defendants/Counterclaim-Plaintiffs/Appellants, )
)
and
)
)
ROBERT A. SMITH, Attorney at Law, A
)
Law Corporation, STANDARD MANAGEMENT, )
INC., MICHAEL BORNEMANN, M.D., U.S.
)
BANCORP MORTGAGE COMPANY, an
)
Oregon Company, WESTERN SURETY
)
COMPANY, sued herein as Doe Entity 1,
)
Respondents/Defendants-Appellees.
)
_______________________________________________ )
(CAAP-16-0000782; CIV. NO. 93-3974-10)

App. 3
CERTIORARI TO THE INTERMEDIATE
COURT OF APPEALS
ORDER REJECTING APPLICATION
FOR WRIT OF CERTIORARI
(By: Recktenwald, C.J., Nakayama, McKenna,
Pollack, and Wilson, JJ.)
Respondent and Petitioner Michael Bornemann, M.D.’s
Application for Writ of Certiorari filed on March 1,
2019 is hereby rejected.
DATED: Honolulu, Hawai‘i, April 4, 2019.
/s/ Mark E. Recktenwald
/s/ Paula A. Nakayama
/s/ Sabrina S. McKenna
/s/ Richard W. Pollack
/s/ Michael D. Wilson

App. 4

APPENDIX B
IN THE CIRCUIT COURT OF THE FIRST CIRCUIT
STATE OF HAWAII
CIVIL NO. 93-3974-10 (Non-motor vehicle tort)
[Filed September 19, 2016]
__________________________________________
BENJAMIN PAUL KEKONA and
)
TAMAE M. KEKONA,
)
Plaintiffs,
)
)
vs.
)
)
PAZ FENG ABASTILLAS, also
)
Known as Paz A. Richter;
)
ROBERT A. SMITH, personally;
)
ROBERT A. SMITH, Attorney At
)
Law, A Law Corporation;
)
STANDARD MANAGEMENT, INC.;
)
MICHAEL BORNEMANN; U.S. BANCORP )
MORTGAGE COMPANY, an Oregon
)
Company; WESTERN SURETY COMPANY, )
Sued herein as Doe Entity 1;
)
JOHN DOES 1-10; JANE DOES 1-10;
)
DOE CORPORATIONS 1-10; DOE
)
ENTITIES 1-10,
)
Defendants.
)
_________________________________________ )

App. 5
FRED PAUL BENCO 2126
3409 Century Square
1188 Bishop Street
Honolulu, HI 96813
Tel: (808) 523-5083
Fax: (808) 523-5085
E-Mail: fpbenco49@yahoo.com
Attorney for Plaintiffs
CONSOLIDATED THIRD AMENDED REVISED
FINAL JUDGMENT
First Trial Date: May 10, 1999
Second Trial Date: Oct. 23, 2000
Third Trial Date: Dec. 17, 2007
Affects Transfer Certificate of Title Nos. 414,762 and
424,556
CONSOLIDATED THIRD AMENDED REVISED
FINAL JUDGMENT
Pursuant to the February 26, 2001 “Amended
Revised Final Judgment” filed hereinbefore; the
June 8, 2006 “Memorandum Opinion” of the Hawaii
Intermediate Court of Appeals (“ICA”) herein; the
“Final Judgment” filed February 5, 2008 herein; the
April 24, 2015 “Opinion” of the Supreme Court of
Hawaii herein; the “Order Granting Plaintiffs’ Motion
To Enter Consolidated Amended Amended Final
Revised Judgment” filed February 1, 2016 herein; the
two June 27, 2016 Intermediate Court of Appeals

App. 6
(“ICA”) Orders1 Dismissing Appeal for Lack of
Appellate Jurisdiction; and the “Stipulation To Amend
The Consolidated Amended Amended Revised Final
Judgment (filed February 1, 2016)” filed even date
herewith,
Plaintiffs TAMAE KEKONA, individually, and
TAMAE KEKONA, as duly-appointed Personal
Representative of the Estate of Benjamin Paul Kekona
(hereinafter together called “Plaintiffs Kekona”) shall
have and take judgment against Defendants Robert A.
Smith, Paz Feng Abastillas and Michael Borneman as
follows:
1. Against Defendant ROBERT A. SMITH,
individually and as Trustee for the dissolved “Robert A.
Smith, Attorney at Law, A Law Corporation,”
(hereinafter collectively called “Robert A. Smith”) as
follows:
a. Against Robert A. Smith, individually:
i.

1

COUNT FOUR OF COMPLAINT
(illegal notary)
$95,500 in special damages
$57,300 in general damages
$250,000 in punitive damages

The ICA dismissed the two related appeals for lack of jurisdiction
in case numbers CAAP-16-0000122 and CAAP-16-0000124.

App. 7
b. Against Robert A. Smith, as Trustee:
ii.

COUNT
I
OF
COMPLAINT
(fraudulent transfer of Kaneohe
Property)
$6,000 in special damages
$3,600 in general damages
$250,000 in punitive damages

The foregoing damages originally awarded against
Robert A. Smith total $662,400, along with statutory
interest of 10% per annum since February 26, 2001 (or
$66,240 per year). Statutory per diem interest is
$184.00. To and including February 25, 2016, the
original judgment amount ($662,400) and the accrued
statutory interest thereon (for 15 years, $993,600) total
$1,656,000.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that PLAINTIFF KEKONA
SHALL HAVE AND TAKE JUDGMENT against
ROBERT A. SMITH for $1,656,000, plus statutory
per diem interest of $184.00 since February 26,
2016.
2. Against Defendant PAZ FENG ABASTILLAS,
individually and as Trustee for the dissolved “Standard
Management, Inc.” (hereinafter collectively called “Paz
Feng Abastillas”) as follows:
a. Against Paz Feng Abastillas, individually
i.

COUNT ONE OF COMPLAINT
(fraudulent transfer of Kaneohe Property)
$29,064 special damages
$17,436 general damages

App. 8
ii.

COUNT ONE OF COMPLAINT
(fraudulent transfer of #1809
Honolulu Park Place)
$15,128 special damages
$9,076 general damages

iii.

COUNT FOUR OF COMPLAINT
(illegal notary)
$95,500 special damages
$57,300 general damages

iv.

PUNITIVE DAMAGES
$250,000 punitive damages

b. Against Paz Feng Abastillas, as Trustee:
i.

COUNT ONE (fraudulent transfer of
Kaneohe Property)
$156,564 special damages
$93,936 general damages
$250,000 punitive damages

The foregoing damages originally awarded against Paz
Feng Abastillas total $974,004, along with statutory
interest of 10% per annum since February 26, 2001 (or
$97,400 per year). Statutory per diem interest is
$270.55. Therefore, to and including February 25, 2016,
the original judgment amount ($974,004) and the
accrued statutory interest thereon (for 15 years,
$1,461,000) total $2,435,004.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that PLAINTIFF KEKONA
SHALL HAVE AND TAKE JUDGMENT against
PAZ FENG ABASTILLAS for $2,435,004, plus

App. 9
statutory per diem interest of $270.55 since
February 26, 2016.
3. Against Defendant MICHAEL BORNEMANN as
follows:
a. COUNT THREE (conspiracy to defraud)
i. $1,642,857.13 punitive damages
The foregoing damages awarded against Michael
Bornemann total $1,642,857.13, along with statutory
interest of 10% per annum since February 5, 2008 (or
$164,285.71 per year). Statutory per diem interest is
$450.09. Therefore, to and including February 4, 2016,
the judgment amount ($1,642,857.13) and the accrued
statutory interest thereon (for 8 years, $1,314,285.60)
total $2,957,142.73.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that PLAINTIFF KEKONA
SHALL HAVE AND TAKE JUDGMENT against
MICHAEL BORNEMANN for $2,957,142.73, plus
statutory per diem interest of $450.09 since
February 5, 2016.
4. Further, it is ADJUDGED AND DECREED
that the following quitclaim deeds and confirmatory
quitclaim deeds are hereby declared cancelled and void,
and Defendant Michael Bornemann shall have no
right, title, interest or other benefit under the following
deeds:
a. That certain Quitclaim Deed dated June 9, 1992
and filed with the Assistant Registrar of the Land
Court of the State of Hawaii as Document No. 2029945

App. 10
on June 1, 1993, noted on Transfer Certificate of Title
No. 342,305, pertaining to that real property commonly
described as 47-186 Kamehameha Highway, Kaneohe,
Hawaii (TMK: 4-7-035-007).
b. That certain Quitclaim Deed dated May 27, 1993
and filed with the Assistant Registrar of the Land
Court of the State of Hawaii as Document No. 2029946
on June 1, 1993, noted on Transfer Certificates of Title
342,305 and/or 414,762, pertaining to that real
property commonly described as 47-186 Kamehameha
Highway, Kaneohe, Hawaii (TMK: 4-7-035-007).
c. That certain Confirmatory Quitclaim Deed dated
October 27, 1993, and filed with the Assistant
Registrar of the Land Court of the State of Hawaii as
Document No. 2080638 on October 27, 1993, noted on
Transfer Certificates of Title No. 342,305, 424,555
and/or 417,762, pertaining to that certain real property
commonly described as 47-186 Kamehameha Highway,
Kaneohe, Hawaii (TMK: 4-7-035-007).
d. That certain Quitclaim Deed dated October 25,
1993 and filed with the Assistant Registrar of the Land
Court of the State of Hawaii as Document No. 2080639
on October 27, 1993, noted on Transfer Certificates of
Title No. 424,555 and/or 424,556, pertaining to that
real property commonly described as 47-186
Kamehameha Highway, Kaneohe, Hawaii (TMK: 4-7035-007).
5. Against all Defendants, Court II (Hawaii RICO)
was dismissed on April 19, 1999.
This Consolidated Third Amended Revised Final
Judgment resolves all remaining matters in this case.

App. 11
There are no further parties, claims or issues left
remaining in this case. Any remaining parties and/or
claims are hereby dismissed.
DATED: Honolulu, Hawaii SEP 16, 2016
RHONDA A. NISHIMURA
Judge of the Above-Entitled Court
APPROVED AS TO FORM:
/s/ Michael F. O’Connor
MICHAEL F. O’CONNOR
Attorney for Defendant
Michael Bornemann
/s/ Robert A. Smith
ROBERT A. SMITH
Defendant Pro Se and as
Trustee for dissolved
corporate defendant
ROBERT A. SMITH, ATTORNEY
AT LAW, A LAW CORPORATION
/s/ Paz Feng Abastillas
PAZ FENG ABASTILLAS
Defendant Pro Se and as
Trustee for dissolved
corporate defendant
STANDARD MANAGEMENT, INC.
Third Consolidated Amended Revised Final Judgment;
Kekona v. Abastillas, Civil No. 93-3974-10 (RAN)

App. 12

APPENDIX C
NOT FOR PUBLICATION IN WEST’S HAWAI‘I
REPORTS AND PACIFIC REPORTER
IN THE INTERMEDIATE COURT OF APPEALS
OF THE STATE OF HAWAI‘I
NOS. CAAP-16-0000679 AND CAAP-16-0000782
[Filed November 30, 2018]
CAAP-16-0000679
_______________________________________________
BENJAMIN PAUL KEKONA and
)
TAMAE M. KEKONA,
)
Plaintiffs/Counterclaim-Defendants/Appellees, )
)
v.
)
)
PAZ F. ABASTILLAS, also known as
)
PAZ A. RICHTER, ROBERT A. SMITH, personally,)
Defendants/Counterclaim-Plaintiffs/Appellees, )
)
and
)
)
ROBERT A. SMITH, Attorney at Law, A
)
Law Corporation, STANDARD MANAGEMENT, )
INC., U.S. BANCORP MORTGAGE COMPANY, )
an Oregon Company, WESTERN SURETY
)
COMPANY, Sued herein as Doe Entity 1,
)
Defendants-Appellees,
)
)

App. 13
and

)
)
MICHAEL BORNEMANN, M.D.,
)
Defendant-Appellant,
)
)
and
)
)
JOHN DOES 1-10; JANE DOES 1-10; DOE
)
CORPORATIONS 1-10; DOE ENTITIES 1-10,
)
Defendants
)
_______________________________________________ )
APPEAL FROM THE CIRCUIT COURT OF THE
FIRST CIRCUIT
(CIVIL NO. 93-3974-10)
CAAP-16-0000782
________________________________________________
BENJAMIN PAUL KEKONA and
)
TAMAE M. KEKONA,
)
Plaintiffs/Counterclaim-Defendants/Appellees, )
)
v.
)
)
PAZ F. ABASTILLAS, also known as PAZ A.
)
RICHTER, ROBERT A. SMITH, personally,
)
Defendants/Counterclaim-Plaintiffs/Appellants, )
)
and
)
)
ROBERT A. SMITH, Attorney at Law, A
)
Law Corporation, STANDARD MANAGEMENT, )
INC., MICHAEL BORNEMANN, M.D., U.S.
)
BANCORP MORTGAGE COMPANY, an Oregon )
Company, WESTERN SURETY COMPANY,
)

App. 14
Sued herein as Doe Entity 1,
Defendants-Appellees,

)
)
)
and
)
)
JOHN DOES 1-10; JANE DOES 1-10; DOE
)
CORPORATIONS 1-10; DOE ENTITIES 1-10,
)
Defendants
)
_______________________________________________ )
APPEAL FROM THE CIRCUIT COURT OF THE
FIRST CIRCUIT
(CIVIL NO. 93-3974-10)
MEMORANDUM OPINION
(By: Ginoza, Chief Judge, Leonard and Reifurth, JJ.)
The litigation between the parties in these
consolidated appeals has an extensive history. This
lawsuit was brought in 1993 by Plaintiffs-Appellees
Benjamin Paul Kekona and Tamae M. Kekona
(collectively the Kekonas)1 against DefendantsAppellants Paz F. Abastillas (Abastillas), Robert A.
Smith (Smith) and Michael Bornemann
(Bornemann), among others. The Kekonas’ claims in
this case relate to conduct by the defendants which
prevented the Kekonas from obtaining recovery
awarded to them in a prior lawsuit.

1

Plaintiff Benjamin Paul Kekona passed away during the course
of this lawsuit, The case has continued with Plaintiff Tamae M.
Kekona, individually and as personal representative for the Estate
of Benjamin Paul Kekona.

App. 15
In the prior lawsuit, Standard Management, Inc.
(SMI), a company run by Abastillas, filed suit against
the Kekonas based on a partnership and business
dispute related to operating a tram at Hanauma Bay
(Hanauma Bay lawsuit). See Standard Mgmt., Inc. v.
Kekona, 99 Hawai‘i 125, 53 P.3d 264 (2001). In that
suit, the Kekonas counterclaimed and also brought
third-party claims against Abastillas and Smith. In
May of 1993, a jury verdict was entered in favor of the
Kekonas and against SMI, Abastillas and Smith, which
included awards of specified damages. Within days of
the Hanauma Bay lawsuit verdict: Abastillas
transferred to Bornemann her interest in an apartment
unit located on Nu‘uanu Avenue (Nu‘uanu property);
and Abastillas and Smith transferred to Bornemann
their primary residence, located in Kâne‘ohe
(Kâne‘ohe property).
In October of 1993, the Kekonas initiated the
instant lawsuit alleging causes of action for:
Fraudulent Conveyances to Avoid Rightful Creditors
(Count One); Hawaii RICO violations (Count Two);
Conspiracy to Commit Fraudulent Conveyances (Count
Three); and Illegal Notary (Count Four). This lawsuit
alone has generated three separate trials and two prior
sets of appeals. See Kekona v. Abastillas, No. 24051,
2006 WL 1562086 (Hawai‘i App. Jun. 8, 2006) (Mem.
Op.) ((Kekona I), vacated in part by Kekona v.
Abastillas, 113 Hawai‘i 174, 150 P.3d 823 (2006)
(Kekona II); Kekona v. Bornemann, 130 Hawai‘i 58,
305 P.3d 474 (App. 2013) (Kekona III), vacated in part
by Kekona v. Bornemann, 135 Hawai‘i 254, 349 P.3d
361 (2015) (Kekona IV).

App. 16
The current appeals by Bornemann in CAAP-160000679 and by Abastillas and Smith in CAAP-160000782, respectively, seek to contest the “Consolidated
Third Amended Revised Final Judgment” filed on
September 19, 2016 (9/19/16 Consolidated
Judgment), by the Circuit Court of the First Circuit
(circuit court)2 in favor of the Kekonas.
In CAAP-16-0000679, Bornemann appeals from the
9/19/16 Consolidated Judgment and also challenges the
following orders entered during the most recent
remand to the circuit court: an “Order Granting in Part
Plaintiffs’ Motion to Amend Three Orders to Pay Over,
and for Other and Further Relief,” filed February 1,
2016; and an “Order Denying [Bornemann]’s Motion to
Vacate Judgment Entered on February 5, 2008 or Any
Judgment Entered on Remand, and to Dismiss this
Case in its Entirety,” filed on October 8, 2015.
Bornemann asserts the 9/19/16 Consolidated Judgment
should be vacated: (1) because a 1994 judgment in the
Hanauma Bay lawsuit expired on September 2, 2014,
pursuant to Hawaii Revised Statutes (HRS) § 657-5
(1993; Supp. 2001),3 and thus can no longer support the
2

The Honorable Rhonda A. Nishimura entered the 9/19/16
Consolidated Judgment.
3

HRS § 657-5 (1993) provides:
§ 657-5 Domestic judgments and decrees. Unless
an extension is granted, every judgment and decree of any
court of the State shall be presumed to be paid and
discharged at the expiration of ten years after the
judgment or decree was rendered. No action shall be
commenced after the expiration of ten years from the date
a judgment or decree was rendered or extended. No

App. 17
judgments in the instant case; (2) the Circuit Court
erred by canceling deeds and returning the Kâne‘ohe
property to Abastillas and Smith without affording
Bornemann credit for equity; and (3) the circuit court
erred by awarding both post-judgment statutory
interest and punitive damages against Bornemann
where the punitive damages award already reflected
punishment for delayed payment to the Kekonas.
In CAAP-16-0000782, Abastillas and Smith appeal
from the 9/19/16 Consolidated Judgment and also
challenge an “Order Denying Motion of Defendants
[Abastillas] and [Smith] to Vacate Judge Marks’
Amended Revised Judgment Filed February 26, 2001,
and Dismiss This Case in Its Entirety with Prejudice
Because Both the Hanauma Bay Judgment and Judge
Marks’ Judgment in This Case Have Expired (Filed
June 24, 2015)” entered on October 8, 2015. Abastillas
and Smith contend the circuit court erred: (1) by
applying Estate of Roxas v. Marcos, 121 Hawai‘i 59,
214 P.3d 598 (2009) retroactively to judgments in the
Hanauma Bay lawsuit and the instant case; (2) because

extension of a judgment or decree shall be granted unless
the extension is sought within ten years of the date the
original judgement or decree was rendered. A court shall
not extend any judgment or decree beyond twenty years
from the date of the original judgment or decree. No
extension shall be granted without notice and a hearing.
HRS § 657-5 was amended in 2001 and amended the last
sentence to read, “[n]o extension shall be granted without notice
and the filing of a non-hearing motion or a hearing motion to
extend the life of the judgment or decree.” HRS § 657-5 (Supp.
2001). This amendment is non-material for the purposes of
analyzing the instant case.

App. 18
the 1994 judgment in the Hanauma Bay lawsuit
expired pursuant to HRS § 657-5, and thus the
fraudulent transfer claim also expired; (3) in
determining Abastillas and Smith had unduly delayed
and thus denying a motion to vacate certain judgments;
and (4) in denying their request to make an oral motion
under Hawai‘i Rules of Civil Procedure (HRCP)
Rule 7(b)(1)4 at a proceeding on September 29, 2015.
For the reasons discussed below, we vacate the
9/19/16 Judgment only with respect to the canceling
and voiding of deeds related to the Kâne‘ohe property.
Otherwise, we affirm.
I.

Background
A. Hanauma Bay Lawsuit

The Kekonas met Abastillas and Smith in the late
1980s. Standard Mgmt., 99 Hawai‘i at 127, 53 P.3d at
266. Abastillas, Smith, and the Kekonas entered into
an agreement wherein the Kekonas would serve as
passive investors in a partnership operating a tram at
Hanauma Bay. Id. In 1989, SMI filed the Hanauma
Bay lawsuit against the Kekonas alleging unlawful

4

HRCP Rule 7(b)(1) provides:
(b) Motions and other papers.
(1) An application to the court for an order shall be by
motion which, unless made during a hearing or trial, shall
be made in writing, shall state with particularity the
grounds therefor, and shall set forth the relief or order
sought. The requirement of writing is fulfilled if the
motion is stated in a written notice of the hearing of the
motion.

App. 19
ouster from the Hanauma Bay partnership. Id. The
Kekonas counterclaimed against SMI for breach of
contract. Id. The Kekonas also filed a third-party
complaint against Abastillas and Smith, alleging, inter
alia, that the Kekonas were fraudulently induced into
the partnership by Abastillas’ and Smith’s intentional
misrepresentations. Id.
In May of 1993, a jury rendered a special verdict in
favor of the Kekonas on the complaint, the
counterclaim, and the third-party complaint.5 Id. The
jury awarded the Kekonas: (1) $152,500 against SMI
(consisting of special damages, general damages, and
attorneys’ fees); (2) $200,000 in general damages,
$25,000 in punitive damages, and $56,250 in attorneys’
fees against Abastillas; and (3) $270,000 in general
damages against Smith. Id. On September 2, 1994, a
Revised Judgment (1994 Hanauma Bay Judgment)
was filed, which entered judgment for the Kekonas
pursuant to the jury award and also for costs of
$8,128.27.
On November 25, 1997, this court (ICA) issued a
decision affirming the awards of $152,500 in general
damages and attorneys’ fees against SMI and the
$25,000 in punitive damages against Abastillas. Id. at
128, 53 P.3d at 267. However, this court remanded for
a new trial on the issue of general damages against
Abastillas for fraud and on the negligence claim
against Smith. Id.

5

The Honorable James R. Aiona, Jr. presided.

App. 20
During remand, the parties engaged in various
efforts to settle and then engaged in further litigation.
Id. at 128-30, 53 P.3d at 267-69. Subsequently, the
circuit court entered a “Final Judgment on Remand as
to All Claims and All Parties” (1999 Hanauma Bay
Judgment).6 Id. at 130, 53 P.3d at 269. On February
28, 2001, this court affirmed the 1999 Hanauma Bay
Judgment and an underlying amended stipulation.7 Id.
at 138, 53 P.3d at 277.
Ultimately, the amount due to the Kekonas based
on judgments in the Hanauma Bay lawsuit amounted
to $191,628.27. See Kekona I at *1.
B. The Instant Lawsuit
The Kekonas filed this lawsuit on October 13, 1993,
about four and a half months after the jury verdict in
the Hanauma Bay lawsuit on May 25, 1993, and after
the Nu‘uanu and Kâne‘ohe properties had been
transferred to Bornemann. Kekona IV, 135 Hawai‘i at
258, 349 P.3d at 365.

6

7

The Honorable Marie N. Milks presided.

The ICA opinion appears to mistakenly refer to the 1999
judgment as “the March 18, 1999 final judgment and its
underlying amended stipulation.” Standard Mgmt., 99 Hawai‘i at
138, 53 P.3d at 277. It appears this reference should refer to the
August 17, 1999 final judgment and its underlying amended
stipulation.

App. 21
1. First Two Trials and First Round of
Appeals
In 1999, the first jury in this lawsuit awarded the
Kekonas extensive damages against SMI, Abastillas,
Smith and Bornemann on a variety of counts, including
$250,000 in punitive damages against each of the
defendants. Id. at 259, 349 P.3d at 366. However, the
circuit court found that the punitive damages award
against Bornemann was excessive and ordered a new
trial as to Bornemann unless the Kekonas consented to
reduce that award to $75,000. Id. The Kekonas opted
for a new trial. Id.
The second jury awarded the Kekonas $594,000 in
punitive damages against Bornemann. Id. The circuit
court entered an “Amended Final Revised Judgment”
on February 26, 2001 (2001 Judgment), which
awarded the Kekonas specified amounts consistent
with the first jury trial, except for the revised amount
of $594,000 in punitive damages against Bornemann.8
Abastillas, Smith, SMI, and Bornemman, among
others, appealed from the 2001 Judgment. See Kekona
I at *1.
On June 8, 2006, in Kekona I, the ICA issued a
memorandum opinion affirming most of the 2001
Judgment. Id. However, the ICA vacated: (1) a
$100,000 general damages award against inter alia,
Abastillas, Smith, and Bornemann for their conspiracy
to fraudulently transfer the Kâne‘ohe property and
(2) a $100,000 award of general damages against
8

The specific amounts awarded in the 2001 Judgment are detailed
in Kekona I at *7 n.5.

App. 22
Abastillas, Smith, and Bornemann for their conspiracy
to fraudulently transfer the Nu‘uanu property. Id. at
*28.
Smith and Abastillas filed an application for writ of
certiorari, which was rejected by the Hawai‘i Supreme
Court. Kekona II, 113 Hawaii at 183 n.10, 150 P.3d at
832 n.10. Separately, Bornemann filed an application
for writ of certiorari, which was granted by the Hawai‘i
Supreme Court. Id. At 175, 150 P.3d at 824.
Bornemann argued to the supreme court, inter alia,
that the ICA erred by holding that a fraudulent
transfer need only be proved by preponderance of the
evidence, rather than by clear and convincing evidence.
Kekona II, 113 Hawai‘i at 180, 150 P.3d at 829. The
supreme court agreed with Bornemann and remanded
the case to the circuit court as to Bornemann, as
follows:
We therefore remand the case to the circuit
court for a new trial as to (a) whether the
Kekonas can demonstrate that the transfers
were fraudulent by “clear and convincing
evidence,” (b) whether the Kekonas can
demonstrate, by “clear and convincing evidence,”
that Bornemann conspired to fraudulently
transfer the Kaneohe and [Nuuanu] properties,
and (c) the appropriate remedies to be assessed
against Bornemann, if any.
Id. at 183, 150 P.3d at 832. Of further note, the
supreme court explained as to Abastillas and Smith:
We reiterate the point that Abastillas and Smith
failed to present any meritorious argument in

App. 23
their applications for writs of certiorari. Notably,
neither Abastillas nor Smith raised the
insufficient standard of proof issue in their
applications to this court. It is fundamental that
“[q]uestions not presented . . . will be
disregarded.” Hawai‘i Rules of Appellate
Procedure (HRAP) Rule 40.1(d)(1). We do not
perceive the requisite prejudice warranting a
plain error analysis. See HRAP Rule 40.1(d)(1)
(“The supreme court, at its option, may notice a
plain error not presented.”). Accordingly, the
ICA’s opinion and the circuit court’s February
26, 2001 “Amended Revised Final Judgment” are
affirmed as to them.
Id. at 183 n.10, 150 P.3d at 832 n.10 (emphasis added).
2. Third Trial as to Bornemann and
Second Round of Appeals
On remand to the circuit court as to Bornemann, a
third jury trial was held.9 In a jury verdict entered on
January 3, 2008, the jury found by clear and convincing
evidence that the Kâne‘ohe property was fraudulently
transferred, but not the Nu‘uanu property. The jury
awarded the Kekonas $253,000 in special damages
against Bornemann “to compensate for the interest
that had accrued on the Kekonas’ initial $191,000
judgment.” Kekona IV, 135 Hawai‘i at 261, 349 P.3d at
369. The jury also awarded the Kekonas $1,642,857.13
in punitive damages against Bornemann. Id. A “Final

9

The Honorable Victoria S. Marks presided.

App. 24
Judgment” related to the third jury trial was entered
on February 5, 2008 (2008 Judgment).
Bornemann appealed the 2008 Judgment to the
ICA, asserting among other things that: the special
damages award against him of $253,000 constituted
double recovery; and the punitive damages award
against him of $1,642,857.13 was excessive and
unconstitutional. Kekona III, 130 Hawai‘i at 63-64, 305
P.3d at 479-80. With regard to the special damages
award of $253,000, the ICA expressed concern as to
whether that award, in combination with cancellation
of the transfer of the Kâne‘ohe property, provided a
recovery to the Kekonas that exceeded the amount of
their damages. Id. at 67-69, 305 P.3d at 483-85. In this
regard, the ICA vacated the 2008 Judgment and held
that further proceedings were necessary to fashion an
appropriate remedy against Bornemann. Id. at 69, 74,
305 P.3d at 485, 490. With regard to the $1,642,857.13
punitive damages award against Bornemann, the ICA
held that the award violated Bornemann’s due process
rights and found instead that punitive damages in the
amount $250,000 was sufficient to punish Bornemann.
Id. at 74, 305 P.3d at 490.
The Kekonas applied for a writ of certiorari
requesting supreme court review only as to the
punitive damages award, which the supreme court
granted. Kekona IV, 135 Hawai‘i at 262, 349 P.3d at
369. In Kekona IV, issued on April 24, 2015, the
supreme court vacated the ICA judgment with regard
to the $1,642,857.13 punitive damages award against
Bornemann, and instead held that “the evidence
presented to the third jury adequately substantiated

App. 25
the $1,642,857.13 punitive damages award that the
jury rendered.” Id. at 264, 349 P.3d at 371. In its
Amended Judgment on Appeal filed on July 6, 2015,
the supreme court thus vacated the ICA’s 2013
judgment on appeal in part, affirmed the circuit
court’s 2008 Judgment with respect to the
$1,642,857.13 punitive damages award against
Bornemann, and remanded the case to the circuit court
for proceedings consistent with its opinion.10
3. 2015 Remand to Circuit Court
The current appeals arise from proceedings in the
circuit court11 after the supreme court remanded the
case in 2015 pursuant to Kekona IV.
In the circuit court, on June 23, 2015, Bornemann
filed a Motion to Vacate Judgment arguing that the
2008 Judgment lacked a valid enforceable debt because
the 1994 Hanauma Bay Judgment had expired. On
June 24, 2015, Abastillas and Smith filed a similar
Motion to Vacate the 2001 Judgment, asserting both
the 1994 Hanauma Bay Judgment and the 2001
Judgment in this case had expired.

10

On May 4, 2015, Bornemann filed a motion for reconsideration
regarding the opinion in Kekona IV, which the supreme court
denied. After the supreme court entered its initial judgment on
appeal on June 18, 2015, the Kekonas filed a motion for
reconsideration, requesting that the supreme court judgment
specifically affirm the circuit court’s $1,642,857.13 punitive
damages award against Bornemann, which the supreme court
granted. Thus, an Amended Judgment on Appeal was filed on
July 6, 2015.
11

The Honorable Rhonda A. Nishimura presided.

App. 26
The Kekonas responded to the motions to vacate by
arguing the circuit court lacked the authority to
overrule the judgments affirmed by either the 2006
ICA decision or the supreme court’s decision in 2015.
The Kekonas also argued that an amended revised
final judgment subsequent to the ICA’s 2006 decision
in Kekona I had never been filed and therefore, there
was no valid original judgment pursuant to Roxas. On
September 29, 2015, a hearing was held regarding the
motions to vacate.
On October 7, 2015, the Kekonas filed a “Motion to
Enter Consolidated Amended Amended Final Revised
Judgment Following Remand” (Motion to Enter
Consolidated Judgment). The Kekonas sought a
consolidated judgment reflecting the 2006 ICA opinion
in Kekona I (particularly the itemized awards set forth
in footnote 5) and the 2015 supreme court opinion in
Kekona IV, and entry of final judgment against all
parties for all claims.
On October 8, 2015, the circuit court entered two
orders denying the motions to vacate that had been
filed by Abastillas and Smith, and Bornemann,
respectively.
On October 30, 2015, the Kekonas filed a “Motion to
Amend Three Orders/Stipulations, For Order to Pay
Over, and for Other and Further Relief” (Motion to
Amend). The Kekonas sought an order that
Bornemann pay over monies in four bank accounts and
transfer both the Nu‘uanu and Kâne‘ohe properties to
the Kekonas. The Kekonas also sought the remaining
equity in the Kâne‘ohe property to be credited such as

App. 27
to satisfy part of the judgment against Abastillas and
Smith.
On December 2, 2015, a hearing was held on the
Motion to Enter Consolidated Judgment and the
Motion to Amend. The Kekonas argued that as part of
a supersedeas bond in 2008, Bornemann had deeded
the Kâne’ohe property to Smith and Abastillas.
Bornemann argued that he was not liable for any
judgments against Smith and Abastillas other than the
original claim plus statutory interest. Bornemann also
argued that the purpose of the supersedeas bond was
to pursue his appeal and to stay execution on the
judgments entered against him.
On January 11, 2016, a second hearing was held on
the Motion to Amend with regards to the Kâne‘ohe
property. Bornemann argued that he had never waived
his equity in the Kâne‘ohe property and is entitled to a
credit. The Kekonas argued that Bornemann never
claimed an interest in the Kâne‘ohe property and failed to
file a timely motion for clarification of the supersedeas
bond or the orders cancelling the quitclaim deeds.
At the hearing, the circuit court noted that the
order granting in part Bornemann’s motion for stay of
execution in 2008 had ordered Bornemann to deliver to
escrow a deed transferring his interest in the Kâne‘ohe
property to SMI and Smith and did not mention a
credit to Bornemann. The circuit court also noted that
the 2013 ICA decision, Kekona III, had not addressed
the cancellation of the quitclaim deeds related to the
Kâne‘ohe property which had been declared null and
void by the circuit court in the 2008 Judgment.
Furthermore, the order cancelling the quitclaim deeds

App. 28
stated that Bornemann had no right, title, interest, or
other benefit as to the Kâne‘ohe property.
On February 1, 2016, the circuit court entered
orders that: granted the Motion to Enter Consolidated
Judgment; and granted in part the Motion to Amend.
The same day, the circuit court also entered a
“Consolidated Amended Amended Revised Final
Judgment” (2/1/16 Judgment)
On February 11, 2016, Bornemann filed a Motion
for Reconsideration arguing that the circuit court failed
to follow the plain text of HRS § 651C-8 and that he is
entitled to a credit for the equity in the Kâne‘ohe
property. Bornemann’s Motion for Reconsideration was
orally denied on April 7, 2016.
Smith and Abastillas filed a notice of appeal and
Bornemann filed a separate notice of appeal from the
2/1/16 Judgment. On June 27, 2016, the ICA entered
two orders dismissing the appeals for lack of appellate
jurisdiction because the 2/1/16 Judgment failed to
identify the claims on which the circuit court intended
to enter judgment.
On September 19, 2016, the circuit court entered
the 9/19/16 Judgment. Therein, the circuit court
specified the claims on which judgment was entered
against the respective defendants and the amounts
awarded for each claim.
• As to Smith, judgment was entered in the total
amount of $1,656,000 (the award of $662,400 plus

App. 29
$993,600 in interest since the 2001 Judgment), plus
statutory interest from February 26, 2016.12
• As to Abastillas, judgment was entered in the
total amount of $2,435,004 (the award of $974,004 plus
interest of $1,461,000 since the 2001 Judgment), plus
statutory interest from February 26, 2016.
• As to Bornemann, judgment was entered in the
total amount of $2,957,142.73 (punitive damages of
$1,642,857.13 plus $1,314,285.60 in interest since the
2008 Judgment), plus statutory interest from
February 5, 2016.
Similar to the 2008 Judgment, the 9/19/16
Judgment declared four specified deeds regarding the
Kâne’ohe property cancelled and void.
Bornemann appealed resulting in CAAP-160000679. Abastillas and Smith appealed resulting in
CAAP-16-0000782.
II.

Standard of Review
A. Statutory Interpretation

“Statutory interpretation is a question of law
reviewable de novo.” State v. Wheeler, 121 Hawai‘i 383,
390, 219 P.3d 1170, 1177 (2009) (internal quotation

12

The amounts in the 9/19/16 Judgment against Smith and
Abastillas track the amounts awarded in the 2001 Judgment,
except for $200,000 in general damages that were vacated by the
ICA in Kekona I. Also, because Smith’s law firm and SMI had
dissolved, the 9/19/16 Judgment included the awards against those
entities as against Smith as Trustee for his law firm and against
Abastillas as Trustee for SMI.

App. 30
marks omitted). Our construction of statutes is guided
by the following rules:
First, the fundamental starting point for
statutory interpretation is the language of the
statute itself. Second, where the statutory
language is plain and unambiguous, our sole
duty is to give effect to its plain and obvious
meaning. Third, implicit in the task of statutory
construction is our foremost obligation to
ascertain and give effect to the intention of the
legislature, which is to be obtained primarily
from the language contained in the statute itself.
Fourth, when there is doubt, doubleness of
meaning, or indistinctiveness or uncertainty of
an expression used in a statute, an ambiguity
exists.
Id. (quoting Citizens Against Reckless Dev. v. Zoning
Bd. of Appeals of the City & Cty. of Honolulu, 114
Hawai‘i 184, 193-94, 159 P.3d 143, 152-53 (2007)).
B. Motion to Vacate Judgments
The circuit court’s rulings on the motions to vacate
prior judgments were based on determining the legal
effect of certain prior judgments and whether they had
expired pursuant to HRS § 657-5. These were questions
of law, which we review de novo. See generally Estate
of Roxas, 121 Hawai‘i at 66, 214 P.3d at 605; Bank of
Hawaii v. DeYoung, 92 Hawai‘i 347, 351, 992 P.2d 42,
46 (2000).

App. 31
III.

Discussion
A. Bornemann’s
0000679

Appeal

in

CAAP-16-

1. Expiration of the 1994 Hanauma Bay
Judgment
Bornemann contends that the circuit court erred in
denying his motion to vacate, which sought to vacate
the 2008 Judgment against him, because the 1994
Hanauma Bay Judgment which he asserts set forth the
underlying debt owed to the Kekonas expired on
September 2, 2014, pursuant to HRS § 657-5.
Bornemann notes that the 1994 Hanauma Bay
Judgment was extended by the Kekonas under HRS
§ 657-5 for ten years, and thus expired on September 2,
2014. Hence, Bornemann contends that by the time the
circuit court was again addressing this case after
remand from the supreme court in 2015, there was no
underlying debt owned to the Kekonas and a necessary
component of the fraudulent transfer claim had
expired.
Bornemann argues the 2008 Judgment should have
been vacated pursuant to HRCP Rule 60(b)(5), which
provides for relief when a judgment “has been satisfied,
released, or discharged[.]” He then points to HRS
§ 657-5, the pertinent version of which provides:
§657-5 Domestic judgments and decrees.
Unless an extension is granted, every judgment
and decree of any court of the State shall be
presumed to be paid and discharged at the
expiration of ten years after the judgment or
decree was rendered. No action shall be

App. 32
commenced after the expiration of ten years
from the date a judgment or decree was
rendered or extended. No extension of a
judgment or decree shall be granted unless the
extension is sought within ten years of the date
the original judgement or decree was rendered.
A court shall not extend any judgment or decree
beyond twenty years from the date of the
original judgment or decree. No extension shall
be granted without notice and a hearing.
(Emphasis added).
Borneman further argues that under Int’l Sav. and
Loan Ass’n, Ltd. v. Wiig, 82 Hawai‘i 197, 921 P.2d 117
(1996), involving a garnishment proceedings, if an
underlying judgment expires under HRS § 657-5, the
judgment is presumed paid and discharged, and all
rights and remedies appurtenant to that judgment
terminate. Bornemann asserts that a fraudulent
transfer claim, like garnishment, is only a mechanism
to collect an existing debt and requires a presently
enforceable underlying claim. See Carr v. Guerard, 616
S.E.2d 429 (S.C. 2005); Jahner v. Jacob, 515 N.W.2d
183 (N.D. 1994); Oregon Recovery, LLC v. Lake Forest
Equities, Inc., 211 P.3d 937 (Or. Ct. App. 2009); RRR,
Inc. v. Toggas, 98 F.Supp.3d 12 (D. D.C. 2015).
First, we note that the Kekonas initiated this action
after the 1993 jury award in the Hanauma Bay lawsuit
and before any judgment had been entered in that prior
lawsuit. The Kekonas’ Verified Complaint relies on the
assertion that they had been awarded damages by the
jury in the Hanauma Bay lawsuit and that soon
thereafter, defendants sought to conceal assets by

App. 33
transferring property to prevent the Kekonas from
recovering on the jury award. Hence, contrary to
Bornemann’s assertion, the Kekonas do not only rely
on the 1994 Hanauma Bay Judgment as the underlying
basis for their fraudulent transfer claim in this case.
Second, even assuming this action by the Kekonas
is construed as based on the 1994 Hanauma Bay
Judgment, we conclude that Wiig is distinguishable.
Unlike in this case, there was no separate and
independent judgment in Wiig distinct from the
underlying judgment that supported the garnishment
order. There, the plaintiff bank had obtained a
judgment for a specified amount against Wiig, and then
filed a motion for issuance of a garnishee summons to
enforce the judgment. 82 Hawai‘i at 198, 921 P.2d at
118. The circuit court entered a garnishee order
directing Wiig’s employer to withhold part of his salary
and pay it to plaintiff bank until the underlying
judgment was fully paid. Id. During the course of
repayment, Wiig asserted that the underlying
judgment had expired and thus the garnishee order
should be set aside. Id. The circuit court denied Wiig’s
motion, but on appeal, the Hawai‘i Supreme Court
reversed. Id. at 198-99, 202, 921 P.2d at 118-19, 122.
The supreme court held that, under HRS § 657-5, the
underlying judgment was presumed paid and
discharged, that the existence of a valid judgment is a
jurisdictional prerequisite to garnishment relief, and
that the garnishment order could not survive
independently of the judgment as the primary purpose
of a garnishment is to enforce the payment of a
judgment. Id. at 201-02, 921 P.2d at 121-22.

App. 34
To the contrary, as noted in the extensive history of
this case which began in 1993, there were two
judgments entered against Bornemann in this case
before the 1994 Hanauma Bay Judgment allegedly
expired in 2014 -- the 2001 Judgment and the 2008
Judgment. Thus, long before the alleged expiration of
the 1994 Hanauma Bay Judgment, independent and
separate judgments were entered in this case against
Bornemann.
Third, and for similar reasons, we conclude that the
case law from other jurisdictions related to fraudulent
transfer claims is distinguishable. In those cases,
although fraudulent transfer lawsuits were dismissed
once an underlying judgment had expired, it does not
appear that independent judgments in the fraudulent
transfer cases had been obtained by the time those
cases were dismissed. See Carr, 616 S.E.2d at 430
(plaintiff filed his fraudulent transfer action after the
underlying judgment had already expired); Oregon
Recovery, LLC, 211 P.3d at 939. In short, the
underlying judgments in Carr and Oregon Recovery,
LLC expired before any judgment for the fraudulent
transfer lawsuit could be rendered.
Here, by contrast, the Kekonas filed this lawsuit
against Bornemann in 1993, soon after the jury award in
the Hanauma Bay lawsuit and before the 1994
Hanauma Bay Judgment had even been issued. Further,
the 2001 Judgment and 2008 Judgment against
Bornemann were both rendered in this case before the
1994 Hanauma Bay Judgment purportedly expired.
Finally, we note that Bornemann contends the 1994
Hanauma Bay Judgment expired on September 2,

App. 35
2014. At that time, this case was pending in the
Hawai‘i Supreme Court. The supreme court issued
Kekona IV on April 24, 2015, after Bornemann
contends the underlying judgment expired. At no time
did Bornemann (or any other party) assert in the
supreme court that any judgment in this case against
him should be vacated due to the expiration of the 1994
Hanauma Bay Judgment. Even after Kekona IV was
issued, Bornemann filed a motion seeking
reconsideration by the supreme court of its opinion.
Bornemann’s motion for reconsideration did not
mention anything about the 1994 Hanauma Bay
Judgment expiring such that any award or judgment
against him was precluded in this case. The supreme
court’s mandate, subsequently issued in its July 6,
2015 Amended Judgment on Appeal, affirms the
$1,642,857.13 punitive damages award against
Bornemann. On remand, the circuit court was
obligated “to comply strictly with the mandate of the
appellate court according to its true intent and
meaning[.]” Chun v. Bd. of Trs. of Emps.’ Ret. Sys. of
State of Hawai‘i, 106 Hawai‘i 416, 439, 106 P.3d 339,
362 (2005).
Given the circumstances in this case, the circuit
court did not err in denying Bornemann’s motion to
vacate the 2008 Judgment.
2. Credit to Bornemann for Equity in
Kâne‘ohe Property
Bornemann contends the circuit court erred in
entering the 9/19/16 Consolidated Judgment because it
canceled the deeds to the Kâne‘ohe property without
considering the value of that property or the value of

App. 36
the 1994 Hanauma Bay Judgment, and without
affording Bornemann any credit for equity in the
Kâne‘ohe property which he estimates was $315,400.13
Bornemann thus asserts the 9/19/16 Judgment should
be modified to give him a credit for the $315,400
purported equity in the Kâne‘ohe property.14
After remand in 2015, in seeking to fashion a
remedy for the Kekonas against Bornemann for the
fraudulent transfer of the Kâne‘ohe property, it
appears the circuit court did not factor in the value of
the Kâne‘ohe property and whether voiding the deeds
which transferred the property to Bornemann allowed
the Kekonas to exceed the recovery due to them under
HRS §§ 651C-7 and 651C-8. This is inconsistent with
Kekona III, 130 Hawai‘i at 66-69, 305 P.3d at 482-85.
The 2008 Judgment included an award for the
Kekonas against Bornemann in the amount of
$253,075.29 for delay damages, punitive damages in the
amount of $1,642,857.13, and a declaration canceling

13

Bornemann arrives at this figure by arguing that in 2015, the
Kâne‘ohe property was tax assessed to have a value of $912,400.
Bornemann then calculates the 1994 Hanauma Bay Judgment,
which was $191,628.27, with ten percent statutory interest added
as of February 1, 2016 as amounting to $597,000. He then
subtracts $597,000 from $912,400, resulting in his claim of a
$315,400 equity credit.
14

The Kekonas argue that Bornemann waived this argument by
failing to raise it in the circuit court. We disagree. During the most
recent remand to circuit court, Bornemann opposed the Kekonas’
Motion to Enter Consolidated Judgment and the Motion to Amend,
and argued the circuit court should give him credit for the equity
in the Kâne‘ohe property.

App. 37
and voiding deeds related to the Kâne‘ohe property. On
appeal to the ICA, in Kekona III, the ICA vacated the
2008 Judgment, including the award of $253,075.29
against Bornemann for delay damages and the voiding
of the deeds. The Kekonas only sought a writ of
certiorari from the supreme court with respect to the
punitive damages award, and thus the rest of the ICA
opinion and judgment in Kekona III remained in effect.
In Kekona III, this court addressed Bornemann’s
various arguments that damages awarded against him
and voiding the transfer of the Kâne‘ohe property, set
forth in the 2008 Judgment, had improperly allowed
the Kekonas to obtain an excessive recovery. Id. We
analyzed the statutory remedies under HRS Chapter
651C and agreed with Bornemann. Of note, after
discussing the types of remedies allowed under HRS
§ 651C-7, which are subject to the limitations in HRS
§ 651C-8, this court stated “this statutory scheme
provides the Kekonas with any number of ways to
recover what is due to them, but it does not allow them
to be compensated more than once.” Id. at 68, 305 P.3d
at 484. We thus held that:
although the Kekonas are entitled to relief
against Bornemann for the amount of the
original underlying judgment against Smith and
Abastillas plus the statutory interest awarded
by the jury as damages, further proceedings are
necessary to fashion an appropriate form or
forms of remedy, executed in a manner that
their recovery does not exceed the sums due to
them.
Id. at 69, 305 P.3d at 485 (emphasis added).

App. 38
HRS § 651C-7 (2016) details the statutory remedies
of creditors for fraudulent transfers and provides:
[§651C-7] Remedies of creditors. (a) In
any action for relief against a transfer or
obligation under this chapter, a creditor, subject
to the limitations provided in section 651C-8,
may obtain:
(1)

Avoidance of the transfer or
obligation to the extent necessary
to satisfy the creditor’s claim;

(2)

An attachment or other provisional
remedy against the asset transferred
or other property of the transferee in
accordance with the procedure
prescribed by chapter 651;

(3)

Subject to applicable principles of
equity and in accordance with
applicable civil rules of procedure:
(A)

An injunction against further
disposition by the debtor or a
transferee, or both, of the asset
transferred or of other property;

(B)

Appointment of a receiver to take
charge of the asset transferred or
of other property of the transferee;
or

(C)

Any other relief the circumstances
may require.

App. 39
(b) If a creditor has obtained a judgment on
a claim against the debtor, the creditor may, if
the court so orders, levy execution on the asset
transferred or its proceeds.
(Emphasis added) The relevant limitations of HRS
§ 651C-8 are as follows:
[§651C-8] Defenses, liability, and
protection of transferee. (a) A transfer or
obligation is not voidable under section 651C4(a)(1) against a person who took in good faith
and for a reasonably equivalent value or against
any subsequent transferee or obligee.
(b) Except as otherwise provided in this
section, to the extent a transfer is voidable in an
action by a creditor under section 651C-7(a)(1),
the creditor may recover judgment for the value
of the asset transferred, as adjusted under
subsection (c), or the amount necessary to satisfy
the creditor’s claim, whichever is less. The
judgment may be entered against:
(1)

The first transferee of the asset or the
person for whose benefit the transfer
was made; or

(2)

Any subsequent transferee other than
a good-faith transferee who took for
value or from any subsequent
transferee.

(c) If the judgment under subsection (b) is
based upon the value of the asset transferred,
the judgment must be for an amount equal to

App. 40
the value of the asset at the time of the transfer,
subject to adjustment as the equities may
require.
Given these provisions, we agree with Bornemann
to the limited extent that the circuit court should have
determined the amount necessary to satisfy the claim,
i.e. the $191,628.27 in damages stemming from the
Hanauma Bay lawsuit, plus statutory interest; and
once that amount was determined, the circuit court
should have, with regard to Bornemann,15 “fashion[ed]
an appropriate form or forms of remedy, executed in a
manner that [the Kekonas’] recovery does not exceed
the sums due to them.” 130 Hawai‘i at 69, 305 P.3d at
485. It does not appear the circuit court considered how
voiding the transfer of the Kâne‘ohe property to
Bornemann affected the amount recovered by the
Kekonas, and whether voiding the transfer of the
Kâne‘ohe property to Bornemann allowed the Kekonas
to recover an amount exceeding the sums due to them
for damages and interest stemming from the Hanauma
Bay lawsuit. Thus, we conclude a further remand is
necessary on this issue.
On remand, the circuit court should: determine the
current circumstances of the case (i.e., if the Kekonas
have already recovered any of the damages or interest
stemming from the Hanauma Bay lawsuit); determine
whether or to what extent voiding the transfer of the
Kâne‘ohe property to Bornemann is needed for the
Kekonas to recover the sums due to them for damages

15

We note that Kekona III only addressed Bornemann’s appeal
from the 2008 Judgment.

App. 41
and interest stemming from the Hanauma Bay lawsuit;
and fashion a remedy against Bornemann16 to ensure
the Kekonas’ recovery in this regard does not exceed
the sums due to them. If the transfer of the Kâne‘ohe
property to Bornemann is voided, the circuit court
should assess how that impacts the amounts recovered
by the Kekonas and provide a remedy against
Bornemann such that the Kekonas receive only the
amount due to them for the damages and interest
stemming from the Hanauma Bay lawsuit.
3. Punitive Damages
Judgment Interest

and

Post-

Bornemann continues to challenge the punitive
damages that have been awarded against him in the
amount of $1,642,857.13. Regardless of Bornemann’s
various arguments in this regard, we need not revisit
this issue. In short, the punitive damages award
against Bornemann was finally decided by the supreme
court in Kekona IV. 135 Hawai‘i at 264-67, 349 P.3d at
371-74.
As to Bornemann’s arguments regarding postjudgment interest, “[t]he purpose of [post-judgment]
interest is to compensate the successful plaintiff for
being deprived of compensation for the loss of time
between the ascertainment of the damage and the
payment by the defendant.” U.S. v. Bell, 602 F.3d 1074,
1083 (9th Cir. 2010) (internal quotation marks and
citation omitted). “Under the common law there is no
[post-judgment] interest, so the propriety of an award
16

Abastillas and Smith do not challenge the amounts entered
against them in the 9/19/16 Consolidated Judgment.

App. 42
of [post-judgment] interest rests solely upon the
statutory provision.” Id. ( internal quotation marks and
citation omitted).
Under Hawai‘i law, post-judgment interest is
governed by HRS § 478-3 (2008) which states:
“[i]nterest at the rate of ten per cent a year, and no
more, shall be allowed on any judgment recovered
before any court in the State, in any civil suit.”
It is apparent from various points in the record that
Bornemann was aware that post-judgment interest was
continuing to accrue through the various trials and
appeals. Prior to the third jury trial, Bornemann,
Abastillas, Smith, and the Kekonas agreed to Jury
Instruction No. 27 which provided: “[i]nterest at the
rate of ten percent a year, and no more, shall be
allowed on any court judgment. H.R.S. Section 478-3.”
In its Amended Judgment on Appeal following
Kekona IV, the supreme court expressly affirmed the
punitive damages award of $1,642,857.13 against
Bornemann, which had been included in the 2008
Judgment. Given all of the circumstances in this case,
we find no error in the circuit court thereafter
awarding statutory interest on the punitive damages
award, amounting to $1,314,285.60 in interest since
the 2008 Judgment.
B. Abastillas and Smith’s Appeal in CAAP16-0000782
1. Retroactivity of Roxas
Abastillas and Smith argue that the supreme
court’s decision in Estate of Roxas v. Marcos, 121

App. 43
Hawai‘i 59, 214 P.3d 598 (2009), should not be applied
retroactively to determine when certain judgments, in
the Hanauma Bay lawsuit and this case, expired
pursuant to HRS § 657-5. Abastillas and Smith argue
that: the 1994 Hanauma Bay Judgment expired on
September 1, 2014, after being extended an additional
ten years under HRS § 657-5; the 1999 Judgment in
the Hanauma Bay lawsuit expired on August 17, 2009;
and the 2001 Judgment in this case expired on
February 26, 2011, even though it was appealed and
this court in Kekona I affirmed it in part and vacated
it in part.
Abastillas and Smith contend that because this
court’s decision in Estate of Roxas v. Marcos, 120
Hawai‘i 123, 202 P.3d 584 (App. 2009) was later
vacated by the supreme court, the supreme court’s
Roxas opinion therefore “established a new principle of
law[.]” We disagree.
The supreme court’s holding in Roxas did not
change established law, but instead provided an
opportunity for the Hawai‘i appellate courts to
interpret the term “original judgment” as set forth in
HRS § 657-5. Roxas, 121 Hawai‘i at 66-71, 214 P.3d at
606-10. The Roxas decision does not reflect that it
should be applied only prospectively. See, contra State
v. Auld, 136 Hawai‘i 244, 361 P.3d 471 (2015)
(recognizing that the court was announcing new rules
in that case that should be applied prospectively).
Indeed, the decision in Roxas was applicable to
judgments in that case issued long before the supreme
court’s opinion, including a judgment issued in 1999.
121 Hawai‘i at 74, 214 P.3d at 613. Thus, we disagree

App. 44
with Abastillas and Smith that the Roxas decision
must be applied only prospectively.
As held in Roxas, the term “original judgment” in
HRS § 657-5 “pertains to the judgment that creates the
rights and responsibilities that the moving party is
seeking to enforce and extend.” Id. at 71, 214 P.3d at
610. Moreover, the supreme court addressed the effect
of an amended judgment for purposes of HRS § 657-5,
and held that:
where multiple judgments created the same
rights that the party is seeking to extend, the
“original judgment” is (1) the unamended
judgment where the amended judgment makes
non-material amendments to a prior judgment,
but (2) the amended judgment where it amended
the prior judgment “in a material and
substantial respect.”
Id. at 72-73, 214 P.3d at 611-12.
In this case, as noted earlier, there were
independent and separate judgments entered in this
case before the judgements in the Hanauma Bay
lawsuit allegedly expired. Thus, as we concluded
earlier, the alleged expiration of the judgments in the
Hanauma Bay lawsuit are not dispositive. Further, as
to the argument by Abastillas and Smith that the 2001
Judgment in this case expired, we note that the 2001
Judgment was amended in a material and substantial
manner by the 2008 Judgment. Moreover, the 2008
Judgment was thereafter amended in a material and
substantial manner by the 9/19/16 Consolidated
Judgment in this case. In sum, we reject Abastillas and

App. 45
Smith’s arguments that judgments against them have
expired such that all damages awarded against them in
this case are extinguished.
2. Abastillas
Arguments

and

Smith’s

Other

Abasillas and Smith further argue that they did not
unduly delay in filing their HRCP Rule 60(b)(5) motion
to vacate certain judgments against them, and
alternatively, that the circuit court erred in not
allowing them to substitute HRCP Rule 7(b)(1) for Rule
60(b)(5) to assert that the judgments against them had
expired.
Based on the record and our rulings above, it is of
no consequence whether Abastillas and Smith were
allowed to rely on Rule 60(b)(5) or HRCP Rule 7(b)(1),
or if the circuit court considered the merits of their
claim that the judgments against them had lapsed. As
discussed above, notwithstanding that judgments in
the Hanauma Bay lawsuit allegedly have expired,
there were separate judgments entered in this case.
Moreover, the judgments entered thus far in this case
have been materially and substantively amended
throughout the course of this lengthy litigation.
IV.

Conclusion

Based on the foregoing, the “Consolidated Third
Amended Revised Final Judgment” entered on
September 19, 2016, in the Circuit Court of the First
Circuit, is vacated only as to its declaration canceling
and voiding deeds related to the Kâne‘ohe property and
declaring that Bornemann shall have no right, title,
interest or other benefit under those deeds. The case is

App. 46
remanded to the circuit court for further proceedings
consistent with this Memorandum Opinion.
In all other respects, the “Consolidated Third
Amended Revised Final Judgment” is affirmed.
DATED: Honolulu, Hawai‘i, November 30, 2018.
/s/
Chief Judge
/s/
Associate Judge
/s/
Associate Judge
On the briefs:
Terence J. O’Toole,
(Lane Hornfeck and
Michael F. O’Connor
with him on the briefs),
for Michael Bornemann, M.D.
Fred Paul Benco,
for Benjamin Paul Kekona
and Tamae M. Kekona.
Paz Feng Abastillas,
pro se.
Robert A. Smith,
pro se.

App. 47

APPENDIX D
IN THE INTERMEDIATE COURT OF APPEALS
OF THE STATE OF HAWAI‘I
NOS. CAAP-16-0000679 AND CAAP-16-0000782
[Filed January 4, 2019]
CAAP-16-0000679
_______________________________________________
BENJAMIN PAUL KEKONA and
)
TAMAE M. KEKONA,
)
Plaintiffs/Counterclaim-Defendants/Appellees, )
)
v.
)
)
PAZ F. ABASTILLAS, also known as
)
PAZ A. RICHTER, ROBERT A. SMITH, personally,)
Defendants/Counterclaim-Plaintiffs/Appellees, )
)
and
)
)
ROBERT A. SMITH, Attorney at Law, A
)
Law Corporation, STANDARD MANAGEMENT, )
INC., U.S. BANCORP MORTGAGE COMPANY, )
an Oregon Company, WESTERN SURETY
)
COMPANY, Sued herein as Doe Entity 1,
)
Defendants-Appellees,
)
)
and
)
)
MICHAEL BORNEMANN, M.D.,
)

App. 48
Defendant-Appellant,

)
)
and
)
)
JOHN DOES 1-10; JANE DOES 1-10; DOE
)
CORPORATIONS 1-10; DOE ENTITIES 1-10,
)
Defendants
)
_______________________________________________ )
APPEAL FROM THE CIRCUIT COURT OF THE
FIRST CIRCUIT
(CIVIL NO. 93-3974-10)
CAAP-16-0000782
________________________________________________
BENJAMIN PAUL KEKONA and
)
TAMAE M. KEKONA,
)
Plaintiffs/Counterclaim-Defendants/Appellees, )
)
v.
)
)
PAZ F. ABASTILLAS, also known as PAZ A.
)
RICHTER, ROBERT A. SMITH, personally,
)
Defendants/Counterclaim-Plaintiffs/Appellants, )
)
and
)
)
ROBERT A. SMITH, Attorney at Law, A
)
Law Corporation, STANDARD MANAGEMENT, )
INC., MICHAEL BORNEMANN, M.D., U.S.
)
BANCORP MORTGAGE COMPANY, an Oregon )
Company, WESTERN SURETY COMPANY,
)
Sued herein as Doe Entity 1,
)
Defendants-Appellees,
)
)

App. 49
and

)
)
JOHN DOES 1-10; JANE DOES 1-10; DOE
)
CORPORATIONS. 1-10; DOE ENTITIES 1-10,
)
Defendants
)
_______________________________________________ )
APPEAL FROM THE CIRCUIT COURT OF THE
FIRST CIRCUIT
(CIVIL NO. 93-3974-10)
JUDGMENT ON APPEAL
(By: Ginoza, Chief Judge, for the court1)
Pursuant to the Memorandum Opinion of this court
entered on November 30, 2018, the “Consolidated Third
Amended Revised Final Judgment” entered by the
Circuit Court of the First Circuit on September 19,
2016, is vacated only as to its declaration canceling and
voiding deeds related to the Kâne‘ohe property and
declaring that Defendant Michael Bornemann shall
have no right, title, interest or other benefit under
those deeds.
In all other respects, the “Consolidated Third
Amended Revised Final Judgment” is affirmed.
The case is remanded to the circuit court for further
proceedings consistent with the Memorandum Opinion.

1

Ginoza, Chief Judge, Leonard and Reifurth, JJ.

App. 50
DATED: Honolulu, Hawai‘i, January 4, 2019.
FOR THE COURT:
/s/
Chief Judge

